U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Gustus v. United States, No. 19-939
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 27,
2020. The government’s response is now due, after two extensions, on April 29, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 1, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0939
GUSTUS, STEPHEN
USA

ERIC F. CITRON
GOLDSTEIN & RUSSELL, P.C.
7475 WISCONSIN AVE.
SUITE 850
BETHESDA, MD 20814
202-362-0636
ECITRON@GOLDSTEINRUSSELL.COM
NICOLE LYBRAND
ASSISTANT FEDERAL DEFENDER
FEDERAL DEFENDERS OFFICE
1401 W. CAPITOL AVE.
SUITE 490
LITTLE ROCK, AR 72201
501-324-6113
NICOLE_LYBRAND@FD.ORG

